WAIVER

Supreme Court of the United States

No. 19-679

Amy Corbitt v. Michael Vickers
(Petitioner) (Respondent)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless
one is requested by the Court.

Please check the appropriate boxes:
xx Please enter my appearance as Counsel of Record for all respondents.

oO There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

 

 

3x Iam a member of the Bar of the Supreme Court of the United States.

co Iam not presently a member of the Bar of this Co ould a response be requested,

the response will be ALL member.
Signature Le Lon. fe
Date: / 2 -6=- ( g

Richard K. Strickland
3 Mr. OMs. O Mrs. O Miss

  
 

(Type or print) Name.

Firm_Brown, Readdick, Bumgartner, Carter Strickland & Watkins

Address _5 Glynn Avenue (31520) / Post Office Box 220 (31521)
31520

City & State Brunswick, GA Zip 31521

Phone (942) 264-8544
SEND A COPY OF THIS FORM TO PETITIONER’S COUNSEL OR TO PETITIONER IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

Ce: Mr. Paul Whitfield Hughes

Obtain status of case on the docket. By phone at 202-479-3034 or via the internet at
http://www.supremecourtus.gov. Have the Supreme Court docket number available.
